BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Briefin Opposition in 20-1377, William
V. and Jenny V., v. Copperas Cove Independent School
District, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies via Next Day Service and
via e-mail service to the following parties listed below,
this 2nd day of June 2021:
Andrew Kiernan Cuddy
Cuddy Law Firm, P.D.
5693 South Street Road
Auburn, NY 13021
(315) 370-4020
acuddy@cuddylawfirm.com

Counsel for Petitioner
BRIDGET ROBINSON
Counsel of Record
WALSH GALLEGOS TREVINO
KYLE & ROBINSON P.C.
P. 0. Box 2156
Austin, Texas 78768
(512) 454-6864
brobinson@wabsa.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive

I Suite 102

Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 2, 2021.

Amy Triplett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

dvvr-c.

dOLfJ

Notary Public

<

/i06=
J

J

;)oJ /

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rebruary 14, 2023

